HHS/OIG Audit:"Medicare Inpatient Hospital Prospective Payment System Transfers Incorrectly Reported as Discharges,"(A-06-00-00041)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Inpatient Hospital Prospective Payment System Transfers Incorrectly
Reported as Discharges," (A-06-00-00041)
November 13, 2001
Complete
Text of Report is available in PDF format (788 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out a continuing significant problem with hospitals incorrectly
reporting prospective payment system (PPS) transfers as discharges. Since 1992
the number of incorrectly reported transfers has trended downward, but remains
too high.  Hospitals incorrectly reported an average of 1,132 PPS transfers
per month in 1992 with this average decreasing to about 495 per month in 1999.  We
identified over 153,000 claims for incorrectly reported transfers during the period
January 1992 through June 2000.  The potential overpayments related to these
transfers totaled nearly $233 million. Causes which have contributed to this ongoing
problem include misapplication of the PPS transfer policy by the Centers for Medicare
and Medicaid Services (CMS) regional offices and the fiscal intermediaries (FIs),
problems with computer systems interfaces at hospitals, and breakdowns in communication
between hospitals' medical and billing staffs.  We recommended that CMS (1)
issue instructions to and work with FIs to initiate the collection of the overpayments
identified to date, (2) issue clarifying instructions or bulletins to the FIs and
hospitals, and (3) instruct FIs and hospitals to review all internal procedures
and processes related to claims submission and payment to assure that PPS transfers
are properly reported. The CMS generally concurred with our recommendations.